No. 21-5280

In The
Supreme Court of the Anited States

ROBERT CRAFT, Petitioner,

Vv.

STATE OF FLORIDA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI

Certificate of Service
I, Carolyn M. Snurkowski, a member of the Bar of this Court, hereby certify
that on this 8th day of October, 2021, a copy of the Respondent’s Brief in Opposition
in the above entitled case was furnished by United States mail, postage prepaid, to
Barbara J. Busharis, Assistant Public Defender, 301 S. Monroe St., Suite 401,
Tallahassee, Florida 32301.
Respectfully submitted,

ASHLEY MOODY
ATTORNEY GENERAL

4 :
l harmacug hilt ri
CAROLYN M. SNURKOW:

Associate Deputy Attorney General
Florida Bar No. 158541
Counsel of Record

19
